                                                                Issue Date
                                                                      February 23, 2012
                                                                 
                                                                Audit Report Number
                                                                       2012-AO-1001




TO:        Cheryl J. Williams, Director, Office of Public Housing, 6HPH

            //signed//
FROM:      Nikita N. Irons, Regional Inspector General for Audit, Gulf Coast Region,
              11AGA

SUBJECT: Opelousas Housing Authority, Opelousas, LA, Did Not Always Comply With
           Recovery Act and Federal Obligation, Procurement, and Reporting
           Requirements


                                   HIGHLIGHTS

 What We Audited and Why

            We audited the Opelousas Housing Authority’s Public Housing Capital Fund
            Stimulus Recovery Act-funded grant as part of our annual audit plan. Our
            objective was to determine whether the Authority (1) followed the requirements
            of the Recovery and Reinvestment Act of 2009 when obligating its Recovery Act
            capital funds and when procuring contracts for goods or services, (2) properly
            expended its Recovery Act Capital Funds in accordance with the requirements
            and (3) accurately reported its Recovery Act activities.

 What We Found


            The Authority did not properly obligate Recovery Act funds spent to purchase
            refrigerators, hot water heaters, and a window air conditioning unit. As related to
            the procurement of its Recovery Act architect’s contract, the Authority did not (1)
            ensure that it had adequate competition, (2) perform a cost or price analysis, and
            (3) prepare an independent cost estimate. This deficiency occurred because the
           Authority did not fully understand the obligation and procurement requirements.
           As a result, it incurred $188,038 in ineligible and $87,675 in unsupported costs.

           In addition, the Authority did not always ensure that its Recovery Act
           expenditures were adequately supported with documentation such as hotel
           invoices and receipts for tenant reimbursements. This deficiency occurred
           because the Authority did not (1) follow its or the U.S. Department of Housing
           and Urban Development’s (HUD) written policies and procedures and (2) have
           adequate written accounting policies and procedures. As a result, it incurred
           $27,920 in unsupported costs.

           Further, the Authority did not always report its Recovery Act activities in
           FederalReporting.gov accurately and in a timely manner; and submitted its final
           report before it spent all of its Recovery Act funds. This deficiency occurred
           because the Authority did not fully understand the Recovery Act requirements
           and did not obtain further clarification from HUD. As a result, it provided
           minimal transparency of and accountability for its Recovery Act-funded activities.

What We Recommend


           We recommend that HUD’s Director of Public Housing require the Authority to
           (1) repay $188,038 in ineligible costs, (2) support the cost reasonableness of the
           architect’s contract or repay any part of the $87,675 disbursed to the architect that
           it cannot support, and (3) support or repay $27,920 for unsupported expenditures.
           In addition, HUD should require the Authority to (1) periodically attend
           procurement training, (2) develop adequate, written accounting policies and
           procedures, (3) correct its reports for the first quarter of 2010 through the second
           quarter of 2011, as applicable, and (4) correct and resubmit its final report in the
           correct period.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-4.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We provided a copy of the draft report to the Authority on February 3, 2012, and
           held an exit conference with the Authority on February 7, 2012. We asked the
           Authority to provide written comments to the draft report by February 9, 2012,
           and it provided written comments on February 7, 2012. The Authority generally
           agreed with the findings. The complete text of the auditee’s response, along with
           our evaluation of that response, can be found in appendix B of this report.



                                             2
             TABLE OF CONTENTS

Background and Objective                                                           4

Results of Audit
      Finding 1: The Authority Did Not Always Follow Recovery Act Obligation and   5
      Procurement Requirements

      Finding 2: The Authority Did Not Adequately Support Its Expenditures         9
      Finding 3: The Authority Did Not Always Comply With Recovery Act             12
      Reporting Requirements

Scope and Methodology                                                              15

Internal Controls                                                                  17

Appendixes
   A. Schedule of Questioned Costs                                                 19
   B. Auditee Comments and OIG’s Evaluation                                        20
   C. Unsupported Relocation Expenditures                                          25




                                            3
                                BACKGROUND AND OBJECTIVE

The Opelousas Housing Authority is a public housing agency located at 906 East Laurent Street,
Opelousas, LA. The Authority manages 690 public housing units.1 Based upon its Annual
Financial statements for the fiscal year ended June 30, 2010, the Authority had more than $1.8
million of unrestricted cash and cash equivalents.

The American Recovery and Reinvestment Act of 2009 became Public Law 111-5 on February
17, 2009. It appropriated $4 billion for Public Housing Capital Fund Stimulus Recovery Act-
funded grants to carry out capital and management activities for public housing agencies. Of the
$4 billion, it allocated $3 billion for formula grants and $1 billion for competitive grants. On
March 18, 2009, the U.S. Department of Housing and Urban Development (HUD) and the
Authority executed amendment number 12 to the Authority’s annual contributions contract, in
which HUD agreed to provide more than $1.4 million in Recovery Act assistance to the
Authority.

The Recovery Act required the Authority to (1) obligate 100 percent of the funds within 1 year
of the date on which the funds became available to the Authority for obligation, (2) expend 60
percent of the funds within 2 years, and (3) expend 100 percent of the funds within 3 years of
such date. HUD made Recovery Act formula grants available on March 18, 2009, resulting in an
obligation deadline of March 17, 2010.

HUD required the Authority to use its formula grant for eligible activities already identified in
either its annual statement or 5-year action plan.2 HUD also required the Authority to report its
obligations and expenditures in HUD’s Line of Credit Control System (LOCCS). Additionally,
two specific provisions in the Recovery Act required the Authority to report its Recovery Act
activities quarterly. Section 1512 required the Authority to report on activities, job creation, and
job retention, and Section 1609 required the Authority to report on the status of compliance with
the National Environmental Policy Act for all Recovery Act-funded projects.

According to LOCCS data, the Authority allocated all of its funding by the statutory obligation
deadline of March 17, 2010. As of August 2, 2011, the Authority had spent its entire Recovery
Act Capital Fund grant totaling more than $1.4 million.

Our objective was to determine whether the Authority followed Recovery Act requirements.
Specifically, we wanted to determine whether the Authority (1) properly obligated and expended
its Recovery Act capital funds in accordance with requirements, (2) followed Recovery Act
requirements when procuring contracts for goods or services, and (3) accurately reported its
Recovery Act activities.



1
  The Opelousas Housing Authority, which is in Saint Landry Parish, does not administer a Section 8 program. Saint Landry Parish has three
housing authorities, including the Opelousas Housing Authority, Saint Landry Parish Housing Authority, and South Landry Housing Authority.
The Saint Landry Parish Housing Authority administers the Section 8 program for the entire parish.
2
  The annual statement, annual plan, and 5-year action plan are all components of the Authority’s comprehensive plan. The HUD-approved
comprehensive plan sets forth all of the Authority’s physical and management improvement needs for its public housing developments.


                                                                     4
                                                 RESULTS OF AUDIT

Finding 1: The Authority Did Not Always Follow Recovery Act
Obligation and Procurement Requirements
The Authority did not always comply with Federal regulations when obligating Recovery Act
funds. Specifically, it purchased 200 refrigerators, 176 hot water heaters, and a window air
conditioning unit without the proper documentation to support that it had a valid obligation
before the Recovery Act March 17, 2010, obligation deadline. In addition, the Authority did not
always follow Federal requirements in procuring its Recovery Act-funded contracts. These
deficiencies occurred because the Authority did not fully understand the obligation and
procurement requirements. As a result, it incurred $188,038 in ineligible and $87,675 in
unsupported costs.



    Recovery Act Funds Were Not
    Properly Obligated


                        The Authority did not properly obligate all of its Recovery Act funds by the required
                        deadline. HUD’s Public and Indian Housing (PIH) Notice 2009-12 required the
                        Authority to obligate 100 percent of the Recovery Act funds and record the
                        obligations in LOCCS by March 17, 2010. The PIH notice3 defined an obligation as
                        the cumulative amount of modernization commitments entered into by the
                        Authority.

                        A review of the LOCCS data determined that by March 8, 2010, the Authority
                        reported that it had obligated more than $1.4 million. According to its HUD-
                        approved revised annual statement, dated March 8, 2010, this amount included more
                        than $1 million for the general contractor, $87,675 for the architect, $60,000 for
                        relocation costs, $69 for administration costs, and $188,038 for refrigerators and hot
                        water heaters.

                        A review of the obligations documentation determined that the Authority did not
                        purchase or have a commitment to purchase the refrigerators and hot water heaters
                        before March 17, 2010. Although the Authority included the purchase of the
                        refrigerators and hot water heaters in its revised annual statement, it did not obtain
                        supporting documentation such as the sales quote, purchase order, and invoice until
                        March 2011,4 almost 1 year after the required obligation deadline. In addition, the
                        Authority used only $187,680 of the $188,038 set aside for the refrigerator and hot
                        water heater purchases, leaving a balance of $358. The Authority used the

3
    Paragraph VII
4
    The sales quote was dated February 28, 2011. The purchase order and invoice were dated March 1, 2011.


                                                                       5
                   remaining $358 to purchase a window air conditioning unit. However, since the
                   Authority did not properly obligate the total amount, it incurred $188,038 in
                   ineligible costs when it purchased the hot water heaters, refrigerators, and air
                   conditioning unit.

    Procurements Were Not
    Properly Conducted


                   The Authority executed two Recovery Act-funded contracts for a (1) general
                   contractor for construction management of the project and (2) design professional
                   for architectural and engineering services (architect). When procuring both
                   contracts, the Authority did not always follow regulations at 24 CFR (Code of
                   Federal Regulations) Part 85 as required by HUD’s PIH Notice 2009-12.

                   A review of the general contract procurement files determined that the Authority
                   did not (1) include the rationale for the selected method of procurement or
                   contract type5 in the file documentation, (2) identify all requirements and other
                   evaluating factors in the invitation for bids,6 and (3) include a discussion of profit
                   negotiation in the cost estimate7 performed. However, the Authority ensured that
                   it properly procured the contract.

                   A review of the architect’s contract procurement files determined that the
                   Authority did not (1) prepare an independent cost estimate before soliciting bids,8
                   (2) perform a cost or price analysis after receiving bids, and (3) have sufficient
                   records to detail the history of the procurement, including the rationale for the
                   procurement method, selection of contract type, contractor selection or rejection,
                   and basis for the contract price.9 In addition, the Authority did not issue the
                   request for proposals to the public,10 but stated that it sent the request to four
                   contractors.

                   Further, the Authority did not ensure full and open competition when procuring
                   the architect’s contract. Specifically, when the Authority issued the request for
                   proposals, it received responses from three bidders. However, it did not consider
                   two of the bidders since (1) one bidder did not submit a proposal but only a letter
                   stating its unavailability to work on the project and (2) the other bidder, which
                   had an existing unrelated contract with the Authority, submitted a proposal but the
                   Authority had to terminate its contractual relationship with the bidder due to
                   contract legality issues. Therefore, one bidder remained for consideration.
                   Although the Authority had one bidder remaining, it did not re-advertise for the


5
  24 CFR 85.36(b)
6
  24 CFR 85.36(c)
7
  24 CFR 85.36(f)
8
  24 CFR 85.36(f)
9
  24 CFR 85.36(b)
10
   HUD Handbook 7460.8, paragraph 7-1(F)


                                                     6
             services and awarded the contract to the remaining bidder, making the
             competition inadequate.

             Without the independent cost estimate, cost or price analysis, or adequate
             competition for the architect’s contract, the Authority could not support the cost
             reasonableness of the contract price or disbursements to the architect totaling
             $87,675.

The Authority Did Not Fully
Understand the Requirements

             The Authority did not fully understand the obligation and procurement
             requirements. It did not know that it needed the commitment documents for the
             purchase of the refrigerators and hot water heaters. In addition, as related to the
             cost or price analysis, the Authority’s contract and grant reviewer stated that
             although he was familiar with the terms, he did not have an in depth knowledge
             of either. Further, the Authority’s executive director stated that due to a
             December 2011 procurement training, she had gained a better understanding of
             the procurement requirements, specifically, independent cost estimates.

Conclusion

             Because the Authority did not understand and comply with Federal requirements
             when obligating and procuring contracts for its Recovery Act funds, it incurred
             $188,038 in ineligible and $87,675 in unsupported costs.

Recommendations



             We recommend that HUD’s Director of Public Housing require the Authority to

             1A. Review its fiscal year 2009, 2010, and 2012 annual plan to determine
                 whether the refrigerators and other appliances are fungible activities in any
                 of the available reprogramming years. If such are fungible activities, HUD
                 should require the Authority to repay the Recovery Act capital fund
                 $188,038 from regular capital funds; and if not fungible activities, repay the
                 Recovery Act capital fund from nonfederal funds.

             1B. To support the cost reasonableness of the architect’s contract price and
                 disbursements totaling $87,675 or repay to the Recovery Act capital fund
                 from nonfederal funds any amounts that it cannot support.




                                               7
1C. To attend HUD-approved procurement training periodically to ensure that it
    and its staff remain familiar with the procurement process.




                               8
Finding 2: The Authority Did Not Adequately Support Its Expenditures
The Authority did not maintain adequate supporting documentation for 16 of 37 Recovery Act-
funded expenditures. Specifically, the Authority’s disbursement files did not include supporting
documentation for hotel invoices and receipts for tenant reimbursements. This deficiency
occurred because the Authority did not follow its or HUD’s written policies and procedures. In
addition, the Authority did not have adequate written policies and procedures for its accounting
functions, specifically for the processing and payment of invoices. As a result, it incurred
$27,920 in unsupported costs.



 Files Lacked Supporting
 Documentation for Payments


              The Authority’s files did not always contain supporting documentation for its
              payments. The Authority had 37 Recovery Act expenditures totaling more than $1.4
              million. A review of the 37 expenditures determined that although the Authority
              generally ensured that it followed Recovery Act requirements when expending the
              funds, it did not always ensure that it adequately supported expenditures.

              For all costs related to relocation of the tenants, the Authority did not clearly
              document the dates or duration of the tenants’ temporary move period, which was
              necessary for determining reimbursement eligibility for submitted claims or
              receipts. Although some of the expenditure files contained documentation showing
              the hotel check-in date and an estimated timeframe of the vacancy from the unit, we
              could not reconcile the actual dates, due to the lack of documentation.

              As related to 16 expenditures paid to hotels for the temporary relocation of tenants
              and reimbursement to tenants for relocation expenses, the Authority did not maintain
              adequate supporting documentation for expenses totaling $27,920 (see appendix C).
              Specifically,

                     The Authority could not provide supporting documentation such as receipts
                      for payments made to the hotels and to support tenant reimbursements
                      totaling $21,669. As related to the hotel payments, the Authority stated that
                      it paid the hotels in advance based on cost estimates for the tenants’ hotel
                      stay; however, it did not obtain a receipt or invoice after tenants completed
                      their stay. This lack of oversight prevented the Authority from reconciling
                      the advance payments to the actual costs to ensure that the hotel properly
                      applied or reimbursed amounts paid.

                     The Authority reimbursed tenants for moving their personal property in
                      conjunction with the relocation. The Authority’s relocation policy
                      required tenants to use licensed professional movers, when opting to use

                                                9
                                  movers and the Authority would pay the mover directly or reimburse the
                                  tenant. However, the tenants did not provide receipts from licensed
                                  professional movers but, rather, provided handwritten receipts from
                                  persons that appeared to be relatives or friends. Unsupported costs for
                                  these expenditures totaled $2,025.

                                 The Authority’s relocation policy allowed $10 per household member, per
                                  meal11 for meal costs. However, the Authority did not document the
                                  number of household members per tenant reimbursement, which was
                                  necessary for supporting the amounts paid for meal cost reimbursements.
                                  The Authority instead reimbursed tenants based upon receipts for actual
                                  meal costs. In one instance, a tenant submitted a receipt which showed
                                  that the tenant paid for meals, at a casino, for eight persons. Without
                                  having documentation to support the number of household members for
                                  each tenant, the Authority could not ensure that it properly paid tenants
                                  and avoided overpayment to tenants. Unsupported costs for these
                                  expenditures totaled $4,226.

                      The Authority ensured that it adequately supported the remaining 21expenditures,
                      totaling nearly $1.4 million12.

     Authority and HUD Policies
     Were Not Followed


                      The Authority did not always follow its own written policies and procedures for its
                      accounting and tenant relocation reimbursements as well as HUD’s policy
                      requirements. Specifically, the Authority’s accounting policy required it to verify
                      that its expenditures were properly supported by a paid claim, a vendor’s original
                      invoice, a receiving document, and a purchase order if applicable. In addition, the
                      Authority’s relocation policy required the Authority to reimburse claims supported
                      by receipts or reasonable proof. Further, HUD Handbook 1378.0 required the
                      Authority to include documentation in its files to support the amounts claimed and
                      paid. However, when asked whether it used claim forms for the tenant
                      reimbursements, the Authority stated that it based reimbursements solely on the
                      tenants’ receipts. In some instances, the Authority did not maintain receipts.

     Accounting Policies and
     Procedures Were Inadequate


                      The Authority did not have adequate accounting policies and procedures.
                      Specifically, the Authority did not have a written accounts payable policy before

11
  Meals included breakfast, lunch, and dinner.
12
  This includes $188,038 of expenditures for the hot water heaters, refrigerators and air conditioning unit; and $87,675 for the architect. These
expenditures were supported with the proper documentation, but were unsupported and ineligible for the reasons discussed under Finding 1.


                                                                        10
             March 16, 2011, and did not have written policies and procedures for processing and
             paying invoices. Additionally, the Authority’s accounting policy lacked detail. For
             example, it did not (1) identify the persons responsible for each step in the payables
             process or (2) differentiate between processes for different types of payables such as
             the Recovery Act fund, regular Capital Fund, and operating-related payables.


Conclusion


             Although the Authority generally ensured that it followed the Recovery Act
             requirements when expending the grant funds, because it did not always follow its
             and HUD’s policies and procedures or have adequate policies and procedures, it
             could not support $27,920 in Recovery Act costs.

Recommendations



             We recommend that HUD’s Director of Public Housing require the Authority to

             2A. Support or repay to the Recovery Act capital fund from nonfederal funds
                 $27,920 for unsupported costs paid for tenant hotel stays and related
                 relocation reimbursements.

             2B. Further develop and implement adequate written accounting policies, which
                 include procedures for processing and paying invoices, to ensure that its
                 expenditures are eligible and supported.




                                              11
Finding 3: The Authority Did Not Always Comply With Recovery Act
Reporting Requirements
Although the Authority generally ensured that it complied with reporting requirements for
compliance with the National Environmental Policy Act, it did not always report its Recovery
Act activities in FederalReporting.gov accurately and in a timely manner as required. Of the
eight report submissions, the Authority submitted one report 4 days late, and six contained
inaccurate expenditure and funds invoiced or received information. The Authority also
submitted its final report before it expended all of its Recovery Act funds. This deficiency
occurred because the Authority did not fully understand the Recovery Act reporting requirements
and did not obtain further clarification from HUD. As a result, it provided minimal transparency
of and accountability for its Recovery Act activities.



     FederalReporting.gov Reports
     Were Not Timely and Accurate


                  The Authority did not always report its Recovery Act activities in
                  FederalReporting.gov accurately and in a timely manner as required. Recovery Act
                  reporting requirements in 2 CFR Part 176 required the Authority to report on its use of
                  the funding no later than the tenth day after the end of each quarter in
                  Federalreporting.gov,13 the nationwide data collection system. The required reporting
                  elements included information such as the expenditure amounts and grant funds
                  invoiced or received.

                  Of the eight required reports, the Authority submitted its fourth quarter 2009 report 4
                  days late. Six reports for the first quarter of 2010 through the second quarter of 2011
                  included inaccurate expenditure information, as follows:

                                                     Expenditure amounts
                          Quarterly reporting period      Reported       Actual                       Difference
                                                           amount      amount14                   (underreported) or
                                                                                                     overreported
                     January-March 2010 (1st)                            $0            $70,140         ($70,140)
                     April-June 2010 (2nd)                            $246,920        $246,900            $20
                     July-September 2010 (3rd)                        $246,920        $429,187        ($182,267)
                     October-December 2010 (4th)                      $719,849        $610,514         $109,335
                     January-March 2011 (1st)                        $1,231,440      $1,224,903          $6,537
                     April-June 2011 (2nd)15                         $1,416,682      $1,362,568         $54,114

                  The Authority also reported inaccurate information for its funds invoiced or received
                  for the second and fourth quarters of 2010 and the second quarter of 2011, as follows:
13
   Beginning the quarter ending September 30, 2009
14
   These figures were based upon the cumulative expended amount reported in LOCCS.
15
   Report marked as final


                                                                  12
                                                    Funds invoiced or received amounts
                                Quarterly reporting period       Reported       Actual        Difference
                                                                  amount        amount    (underreported) or
                                                                                             overreported
                          April-June 2010 (2nd)                  $246,920     $246,900            $20
                          October-December 2010 (4th)            $719,849     $611,672         $108,178
                          April-June 2011 (2nd)16               $1,416,682   $1,362,568         $54,114

                       Further, because the Authority marked its second quarter 2011 report as final before it
                       expended all of its Recovery Act funds, it did not report its third quarter 2011 activities
                       as required.

The Authority Did Not
Understand the Requirements
or Seek Further HUD Guidance


                       According to the Authority, as related to the fourth quarter of 2009 late submission,
                       it believed that it had 15 days to submit the report, based upon verbal guidance
                       received from HUD. In addition, as related to marking the second quarter of 2011
                       as final, it did this as a result of an August 31, 2011, email from HUD. A review of
                       the email from HUD showed that HUD did not instruct the Authority to submit the
                       final report but, rather, to determine whether it could access and report it since the
                       final report had to be completed in FederalReporting.gov. The Authority’s
                       contracts and grants reviewer stated that although he understood that the final report
                       should have been submitted in the period in which the Authority spent all of its
                       funds, he was confused but submitted the final report as instructed by HUD. The
                       Authority should have sought further clarification from HUD.


       Conclusion


                          Since the Authority did not report its Recovery Act activities accurately or in a
                          timely manner, it provided minimal transparency and accountability, as the public
                          did not have access to accurate information related to its Recovery Act
                          expenditures and project status.




  16
       Report marked as final


                                                              13
Recommendations



          We recommend that HUD’s Director of Public Housing require the Authority to

          3A.     Reconcile its accounting records (e.g., check registers) for its ARRA
                  disbursements and correct its reported expenditure amounts in
                  FederalReporting.gov for the first, second, third and fourth quarters of
                  2010 and the first and second quarters of 2011, based upon the
                  reconciliation.

          3B.     Correct its reported funds invoiced or received amounts in
                  FederalReporting.gov for the the second and fourth quarters of 2010 and
                  the second quarter of 2011.

          3C.     Reissue its final FederalReporting.gov report in the correct reporting
                  period, specifically for the third quarter of 2011.




                                           14
                                      SCOPE AND METHODOLOGY

We conducted our audit at the Authority’s office in Opelousas, LA, and the HUD Office of
Inspector General’s (OIG) offices in New Orleans and Baton Rouge, LA. We performed our audit
between August 2011 and January 2012.

To accomplish our objective, we

          Obtained and reviewed laws, regulations, and program guidance relevant to the Recovery
           Act.
          Interviewed HUD and Authority staff.
          Reviewed the Authority’s audited financial statements.
          Reviewed HUD’s monitoring reviews of the Authority’s Recovery Act activities.
          Reviewed the Authority’s annual contributions contract amendment, annual statements, and
           5-year plan.
          Reviewed the Authority’s board meeting minutes.
          Reviewed the Authority’s procurement and accounting policies.
          Reviewed the Authority’s Recovery Act-related procurement files.
          Reviewed and analyzed the Authority’s Recovery Act-related obligation and expenditure
           files.
          Reviewed Recovery Act reporting documentation as available.

The Authority executed two Recovery Act-funded contracts totaling more than $1.1 million.17 We
audited the two procurement files and evaluated whether the Authority procured the contracts in
accordance with HUD and Recovery Act requirements. We also assessed whether the Authority’s
obligations were eligible and properly supported. To determine the amount of the Authority’s
obligations, we used HUD’s LOCCS data. Through file reviews, we determined that the LOCCS
data were generally reliable.

In addition, we audited all 37 of the Authority’s payment vouchers totaling more than $1.4 million
applicable to the Recovery Act expenditures. We reviewed the payment vouchers to determine
whether the Authority’s Recovery Act disbursements were eligible and supported. Through file
reviews, we determined that the electronic disbursement data were generally reliable. Lastly, we
reviewed all available documentation related to the Federal reporting Web sites to determine
whether the Authority properly reported its obligations, expenditures, and activities in accordance
with Recovery Act requirements.

Our audit scope covered the period March 18, 2009, through August 31, 2011. We expanded the
scope as needed to accomplish our audit objective. We conducted the audit in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our


17
  The Authority used the remaining $248,107 of its $1.4 million Recovery Act Capital Fund grant for tenant relocation costs, dwelling equipment
(purchases), and administration costs.


                                                                        15
findings and conclusions. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective.




                                              16
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
               We determined that the following internal controls were relevant to our audit
               objective:

                     Controls over obligations, procurements, and expenditures related to
                      Recovery Act activities.
                     Controls over Recovery Act reporting.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiencies
               Based on our review, we believe that the following items are significant deficiencies:

                     The Authority did not properly obligate its Recovery Act funds and
                      procure its Recovery Act-funded contract (see finding 1).
                     The Authority did not have adequate written accounting policies and
                      procedures (see finding 2).
                     The Authority did not always report its Recovery Act information
                      accurately and in a timely manner (see finding 3).

                                                 17
Separate Communication of
Minor Deficiencies

           Minor internal control and compliance issues were reported to the Authority and
           HUD in a separate memorandum, dated January 31, 2012.




                                           18
                                     APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS

                 Recommendation          Ineligible 1/   Unsupported 2/
                     number
                               1A             $188,038

                                1B                               $87,675

                               2A                                $27,920

                            Totals            $188,038         $115,595


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.




                                             19
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation                Auditee Comments


                The Housing Authority of the City of Opelousas
            JOE ANN TYLER                                                               P.O. Box 689
             Executive Director                                                  Opelousas, Louisiana 70571-0689
                                                                                (337) 942-5693 FAX (337) 942-1334
            February 7, 2012

            Ms. Nikita Irons
            Regional Inspector General for Audit
            U.S. Department of HUD
            Office of Inspector General

            RE: Opelousas Housing Authority Capital Fund Stimulus Recovery Act-Funded Grant

            Dear Ms. Irons:

            On behalf of Opelousas Housing Authority, please accept this as my response to your Audit of
            OHA’s ARRA Grant.

            Finding #1: The Authority did not always follow recovery act obligation and procurement
            requirements.

            Response: The Housing Authority of the City of Opelousas does not dispute this finding. It is
            the intent of this agency to comply with its procurement policy. OHA adopted by Board
            Resolution #072110-A, a new procurement policy. This policy complies with the Annual
            Contributions Contract (ACC) between the Housing Authority and the U.S. Department of HUD,
            Federal Regulations at 24 CFR 85.36, the procurement standards of the procurement handbook
            for public housing authorities (PHAs), HUD handbook 7460.8. Rev. 2, and all applicable state
            and local laws.

            My employment began on November 16, 2009 at Opelousas Housing Authority. At that time, I
            did not have much knowledge of procurement. I relied on the current staff and HUD for
            guidance. The current Contracts/Grants Reviewer, Erinton Savoie, did not assume his current job
            responsibilities until November 2009 as well.

            The formal director, Mr. Walter Guillory, was hired by the Board of Commissioners as a
            consultant to assist and train as I transition into the position of Executive Director. Mr. Guillory
            terminated the Mod-Coordinator prior to my employment. During his consulting term, Mr.
            Guillory made no reference as to the importance of obligating to purchase Refrigerators or Hot
            Water Heaters prior to March 17, 2010.



                                                20
            Shortly after my employment at OHA the agency was placed on a $0.00 (zero) threshold by
            HUD. OHA was lacking sufficient documentation such as a PHA Plan, Environmental
            Review, and Corrected Performance & Evaluation Report. The ARRA Grant was awarded to
            OHA in February 2009 and was accepted by the Board of Commissioners in March of 2009.
Comment 1   The ARRA Grant was not approved for drawdown until January 2010 which left only two
            months to obligate the entire grant. Funding was to be used for A/E Fees (1430); Dwelling
            Structures (1460); and Relocation Costs (1495). OHA was not able to spend any monies
            from any capital fund without prior approval from the HUD Staff which included the
            submission of OSRR documents, ESRR documents, and all invoices.
Comment 1
            OHA never intended to purchase $188,038.00 until instructed to do so by the HUD field
            office on February 16, 2011 when we were told that change orders were not allowed under
            the ARRA grant and told that the money designated for change orders was to be placed into
            line item 1465 for appliances. The HUD field office referenced a document from our
            architect dated March 8, 2010 that recapped the numbers on the 2009 ARRA grant and the
            section titled “amount available for appliances.” This document was never a commitment to
            buy appliances by OHA; its purpose was only as a reference just in case the Authority needed
            to purchase appliances along with the amount available for such purchase. The
            documentation for the purchase of the appliances was approved along with the purchase of
            the $358.00 air conditioning unit.
Comment 1
            Documents pertaining to the cost reasonableness of procuring the architect at 7.5% of the
            contract cost are attached to this response.

            I have worked tirelessly to study and learn the Procurement Policy. On December 14, 2011
            through December 16, 2011, I successfully completed the Housing Agency Procurement and
            Contracts Management Seminar. It is my intent that Mr. Erinton Savoie and I will
            periodically attend HUD-approved procurement training.

            Finding #2: The Authority did not adequately support its Expenditures.
Comment 2
            Response: Opelousas Housing Authority does not dispute this finding. OHA has already
            supplied some of the supporting documentation for the unsupported cost paid for tenant hotel
            stays and related relocation reimbursement. Several hotel receipts could not be obtained to
            provide to the OIG Auditors. Also supporting documentation will be provided to show the
            expense of hiring licensed professional movers, which residents could take advantage of at
            their own discretion.




                                             21
              Finding #3: The Authority did not always comply with Recovery Act Reporting
              Requirements.

Comment 3 Response: Opelousas Housing Authority agrees with this finding, but reports submitted on
              Federal Reporting.gov cannot be corrected after said reporting periods has passed.

              If you have any other questions, please advise.

              Sincerely,

              //Signed//

              Joe Ann Tyler
              Executive Director
                                           ”AN EQUAL OPPORTUNITY EMPLOYER”




                                                 22
                         OIG Evaluation of Auditee Comments

Comment 1   The Authority agreed, but indicated that the Recovery Act grant was to be used
            for architect fees, dwelling structures, and relocation costs. This is based upon the
            original annual statement signed by the Executive Director on January 21, 2010.
            We disagree. While the Authority's Recovery Act grant may have been approved
            in January 2010, the Executive Director executed a revised annual statement on
            March 8, 2010, and obligated 100 percent of its Recovery Act funds on the same
            day. This revised annual statement effectively replaced the original annual
            statement and showed that the Authority intended to use the Recovery Act funds
            for administration, architect fees, dwelling structures, dwelling equipment-
            nonexpendable ($188,038 for the appliance purchases), and relocation costs, as
            explained in Finding 1.

            The Authority also commented that it did not intend to make the purchases
            totaling $188,038; however, only did so upon instruction and approval by the
            HUD field office. As the recipient and administrator of the grant funds, it was
            ultimately the Authority’s responsibility to ensure that it had a full understanding
            of the grant requirements and that those requirements were met. It was also
            necessary for the Authority to assess for itself whether the funds were being
            obligated and expended in accordance with the grant requirements and to make
            the appropriate decisions. Therefore, we stand by our original conclusions and
            recommendation 1A.

            Further, the Authority provided some additional documentation, to help support
            the reasonableness of the architect’s contract. The Authority should provide the
            final supporting documentation to HUD’s staff, which will assist the Authority
            with resolving the recommendation 1B. Upon HUD's review and approval, final
            action will be recorded in the department audit resolution tracking system after
            the report is issued.

Comment 2   The Authority agreed, but commented that tenants could take advantage of
            licensed professional movers, at their own discretion. We agree that based upon
            the Authority's relocation policy, the tenants’ use of licensed, professional movers
            was optional. However, the Authority’s relocation policy also stated that
            relocated tenants were entitled to payment of their actual moving and related
            expenses, which included packing, crating, unpacking, and uncrating of their
            personal property. Meaning, tenants who opted not to use licensed professional
            movers would be directly responsible for moving their personal property, and
            would not receive payments for physically doing so. Therefore, we stand by our
            original conclusions and recommendation 2A.

Comment 3   The Authority agreed, but commented that it could not perform post corrections to
            the reports submitted on Federalreporting.gov after the reporting periods. We
            disagree. Based upon guidance from the Recovery Accountability and
            Transparency board, corrections to the received and/or expensed amounts can be


                                             23
made to prior period reports. Therefore, we stand by our original conclusions and
recommendations 3A, 3B, and 3C.




                                24
  Appendix C
         UNSUPPORTED RELOCATION EXPENDITURES

Count       Total      Unsupported                                          Comments
         expenditure
  1       $188,593        $828       Authority reimbursed tenants for (1) meals ($638) but did not document the number of
                                     members per household to support the amounts paid and (2) moving expenses ($190)
                                     when the tenant did not use a licensed professional mover.
  2       $10,570        $2,040      Authority paid the hotel $10,570 in advance for 10 tenants’ hotel stays. Room invoices
                                     for the 10 tenants showed that actual expenses totaled $8,530, a $2,040 difference.
                                     Authority could not provide support for the $2,040.
  3       $10,920        $2,990      Authority paid the hotel $10,920 in advance for 12 tenants’ hotel stays. Room invoices
                                     for the 12 tenants showed that actual expenses totaled $7,930, a $2,990 difference.
                                     Authority could not support for the $2,990.
  4        $1,158          $45       Authority reimbursed one tenant for (1) an electric connection fee ($25) but did not have
                                     a receipt from the tenant and (2) a cable connection fee ($20) but the receipt provided
                                     showed that the tenant was not charged.
  5         $399          $264       Authority reimbursed tenants for meals ($264) but did not document the number of
                                     members per household to support the amounts paid.
  6       $2,415.87      $2,100      Authority paid the hotel $2,100 in advance for tenant relocations; however, it could not
                                     provide support for actual costs incurred.
  7         $768          $708       Authority (1) reimbursed tenants for meals ($464) but did not document the number of
                                     members per household to support the amounts paid, (2) did not have receipts for moving
                                     expenses ($100) and cab fare ($69), and (3) reimbursed tenants for moving expenses
                                     ($75) when the tenant did not use a licensed professional mover.
  8        $2,100        $2,100      Authority paid the hotel $2,100 in advance for tenant relocations; however, it could not
                                     provide support for actual costs incurred.
  9        $2,284        $1,034      Authority reimbursed tenants for (1) meals ($944) but did not document the number of
                                     members per household to support the amounts paid and (2) moving expenses ($90) when
                                     the tenant did not use a licensed professional mover.
 10        $2,940        $2,940      Authority paid the hotel $2,940 in advance for tenant relocations; however, it could not
                                     provide support for actual costs incurred.
 11        $1,132         $413       Authority reimbursed tenants for (1) meals ($243) but did not document the number of
                                     members per household to support the amounts paid, (2) moving expenses ($150) when
                                     the tenant did not use a licensed professional mover, and (3) a cable connection fee ($20),
                                     but did not have a receipt from the tenant.
 12        $5,460        $5,460      Authority paid the hotel $5,460 in advance for tenant relocations; however, it could not
                                     provide support for actual costs incurred.
 13         $516          $373       Authority reimbursed tenants for (1) meals ($213) but did not document the number of
                                     members per household to support the amounts paid and (2) moving expenses ($160)
                                     when the tenant did not use a licensed professional mover.
 14        $6,537        $4,751      Authority paid the hotel $3,640 in advance for tenant relocations. However, it could not
                                     support actual costs incurred. Authority reimbursed tenants for (1) moving expenses
                                     ($680) when the tenant did not use a licensed professional mover and (2) meals ($431)
                                     but did not document the number of members per household to support the amounts paid.
 15        $3,864        $1,438      Authority reimbursed tenants for (1) moving expenses ($680) when the tenant did not use
                                     a licensed professional mover, (2) meals ($643) but did not document the number of
                                     members per household to support the amounts paid, and (3) hotel expenses and gas
                                     ($115) but did not have receipts from the tenant.
 16         $609          $436       Authority reimbursed tenants for (1) meals ($386) but did not document the number of
                                     members per household to support the amounts paid and (2) hotel expenses ($50) but did
                                     not have receipts to support amounts paid.
Totals    $240,266       $27,920




                                                         25
